Department of Homeland Security
   Ofﬁce of Inspector General

      Improved Management and Stronger
     Leadership Are Essential to Complete
          the OneNet Implementation
                 (Redacted)




OIG-09-98                         September 2009
September 4, 2009
Table of Contents/Abbreviations 

Executive Summary ................................................................................................................1


Background .............................................................................................................................2


Results of Audit ......................................................................................................................6

   Actions Taken to Implement OneNet ...............................................................................6 

   Improved Management Oversight Needed To Complete OneNet Implementation .........7 

   Recommendations...........................................................................................................12 

   Management Comments and OIG Analysis ...................................................................13 

   Technical Changes Can Improve OneNet Security ........................................................17 

   Recommendations...........................................................................................................21 

   Management Comments and OIG Analysis ...................................................................21 



Appendices
     Appendix A:          Purpose, Scope, and Methodology...........................................................25 

     Appendix B:          Management Comments to the Draft Report ...........................................26 

     Appendix C:          Components’ OneNet Implementation Status..........................................35 

     Appendix D:          Major Contributors to this Report ............................................................36 

     Appendix E:          Report Distribution ...................................................................................37 



Abbreviations
     AES                 Advanced Encryption Standard 

     CBP                 Customs and Border Protection 

     CDP                 Cisco Discovery Protocol 

     CIO                 Chief Information Officer 

     CIOC                Chief Information Officer Council 

     CIS                 Citizenship and Immigration Services 

     CONOPS              Concept of Operations 

     DCN                 DHS Communication Network 

     DHS                 Department of Homeland Security 

     DISA                Defense Information Systems Agency 

     FEMA                Federal Emergency Management Agency 

     FISMA               Federal Information Security Management Act 

     FLETC               Federal Law Enforcement Training Center 

     FY                  Fiscal Year           

     HQ                  Headquarters            

     ICCB                Interim Change Control Board 

     ICE                 Immigration and Customs Enforcement 

     IP                  Internet Protocol           

     ISS                 Internet Security Systems 

Table of Contents/Abbreviations 

  IT        Information Technology
  ITP       Information Technology Infrastructure Transformation Program
  MD5       Message-Digest Algorithm 5
  MOA       Memorandum of Agreement
  MPLS      Multiple Protocol Label Switching
  NIST      National Institute of Standards and Technology
  NOC/SOC   Network Operation Center/Security Operation Center
  OCIO      Office of Chief Information Officer
  OMB       Office of Management and Budget
  PMP       Project Management Plan
  PMR       Program Management Review
  SIOC      Senior Infrastructure Officer Council
  TACACS    Terminal Access Controller Access-Control System
  TIC       Trusted Internet Connection
  TSA       Transportation Security Administration
  USCG      United States Coast Guard
  USSS      United States Secret Service
  WAN       Wide Area Network
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                       The Homeland Security Act of 2002 requires the Department of
                       Homeland Security (DHS) to establish a secure information
                       technology (IT) structure that enhances the communication,
                       security, and sharing of data between components. In 2005, DHS
                       began the process to consolidate its components’ existing
                       infrastructures into a wide area network (WAN), known as
                       OneNet. The goal of the OneNet initiative is to help DHS
                       consolidate its existing IT infrastructure into a more efficient and
                       standardized architecture and to help the department improve
                       overall cost effectiveness across the enterprise.

                       DHS is behind schedule in implementing OneNet, and is facing
                       numerous challenges in achieving its network consolidation
                       objectives. Three years have lapsed since the initial scheduled
                       completion date of OneNet. Many OneNet implementation
                       activities are not complete, progress to date has been limited, and
                       cost savings have not been realized. These problems are occurring
                       because DHS has not provided effective oversight or leadership to
                       guide components’ transition into OneNet and to ensure the
                       completion of critical tasks for the consolidation.

                       Concerning security requirements, DHS has implemented adequate
                       security controls over OneNet. We did not identify any critical
                       vulnerabilities that could be exploited to gain unauthorized access
                       to the network. In addition, DHS is performing adequate network
                       and security monitoring. We determined that program officials
                       had ensured OneNet was certified and accredited in accordance
                       with applicable DHS information security policy. However, DHS
                       has not configured                     according to DHS security
                       guidelines and                                         to provide
                                                                                    at its
                       backup facility.

                       We are making nine recommendations to the Under Secretary for
                       Management and Chief Information Officer. DHS concurred with
                       five recommendations and has already begun to take actions to
                       implement them. The resolved recommendations will remain


  Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                            Page 1
                      open until DHS provides documentation to support that the
                      implementation of all planned corrective actions is complete. The
                      remaining unresolved recommendations will require additional
                      discussion between our offices before disposition. DHS’ response
                      is summarized and evaluated in the body of this report and
                      included, in its entirety, as Appendix B.


Background
                      On November 25, 2002, Congress enacted the Homeland Security
                      Act of 2002, establishing DHS, including its mission, functions,
                      and component organizations. As part of the Act, DHS was
                      required to establish a secure IT infrastructure that enhances the
                      communication, security, and sharing of data between DHS
                      components.

                      In 2005, the Chief Information Officer (CIO) Council developed
                      an operational model (see Figure 1) which assigned centralized
                      governance and oversight responsibilities to the DHS CIO, and the
                      decentralized execution of roles to the components that have been
                      designated as “stewards.” For example:
                          •	 Customs and Border Protection (CBP) is responsible for
                             network services and data center services.
                          •	 United States Coast Guard (USCG) is responsible for
                             E-mail and help desk services.
                          •	 Federal Emergency Management Agency (FEMA) is
                             responsible for video services and serves as a backup for
                             email and Network Operation Center/Security Operation
                             Center (NOC/SOC) activities.

                      Figure 1-CIO Council Stewardship Operational Model




 Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                           Page 2
                           On July 31, 2005, the Deputy Secretary approved the Information
                           Technology Infrastructure Transformation Program (ITP) Charter,
                           which established the roles and responsibilities for the CIO,
                           stewards, and DHS components. The focus of the ITP was to
                           provide a single IT infrastructure that is capable of supporting the
                           department’s mission and providing unified IT services to all DHS
                           components.1 The ITP consists of five primary domains: data
                           center, E-mail, help desk, network, and video services.
                           Subsequently, a program office was established within the
                           Enterprise Services Division of the Office of the Chief Information
                           Officer (OCIO). Its task was to begin consolidating and
                           modernizing the DHS IT infrastructure. In the department’s
                           October 21, 2005, response to our prior audit report, the CIO
                           estimated that DHS would complete the consolidation of existing
                           infrastructures into OneNet in FY 2006.2

                           In addition to the ITP Charter, the program office developed the
                           following documents to assist DHS in managing the OneNet
                           project:
                                •	 The Project Management Plan (PMP) which contains the
                                   scope, tasks, schedule, allocated resources, and
                                   interrelationships with other projects. According to the
                                   PMP, the OneNet implementation is divided into four
                                   phases. The PMP is required to be updated at the end of
                                   each phase or when new information becomes available.
                                •	 The Program Management Review (PMR) which provides
                                   the Enterprise Services Division with a monthly snapshot
                                   of its projects, such as the ITP for OneNet.
                                •	 The DHS Security Operations Concept of Operations
                                   (CONOPS) which contains the operating procedures of the
                                   DHS SOC and the incident response procedures at
                                   component SOCs.
                           As the network steward, CBP is responsible for developing and
                           coordinating with other components to consolidate their existing
                           infrastructures into OneNet. In addition, CBP is also responsible
                           for the overall management of the DHS NOC/SOC function.
                           OneNet will ultimately integrate with component WANs and will
                           provide a global communications environment that offers
                           improved security and interoperability throughout the department.
                           DHS envisions that OneNet will provide the components with
                           secure data, voice, video, tactical radio, and satellite
1
    OneNet PMP, version 1.3, dated January 16, 2009. 

2
    OIG-06-05, Improved Security Required for DHS Networks (November 2005). 

      Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                                Page 3
                     communications between internal and external DHS resources.
                     OneNet will employ
                     technology to provide DHS components with enhanced
                     redundancy, survivability, and reliability.3 Figure 2 provides a
                     high-level view of OneNet’s architecture and design.

                     Figure 2: OneNet Architecture and Design Overview

                                        Site 1 – Users                               Site 4 – Users
                                   Ex. DHS (Headquarters)                       Ex. Secret Service (Field
                                                                                         office)




                                                            DHS OneNet
                             Site 2 – Users                                                     Site 5 – Users
                        Ex. USCG (Harbor Patrol)            - Multitext
                                                                     Carrier               Ex. CBP (Border Patrol)
                                                            -
                                                            - Managed Service



                                                                                  Site 6 – Users
                                        Site 3 – Users                           Ex. FEMA (Mobile
                                       Ex. TSA (Airport)                         Command Center)




                     Before a component can migrate to OneNet, several key activities
                     must be completed. Components must:
                          •	 Convert their sites to
                          •	 Provide CBP with

                          •	 Comply with the OneNet internet protocol (IP) address
                             schemes to avoid conflicts.
                          •	 Establish and sign a memorandum of agreement (MOA) to
                             define the roles and responsibilities between CBP and the
                             component.
                     Ultimately, OneNet will help reduce the number of fragmented
                     component networks, providing DHS with a secure in-house
                     solution that enables centralized management and configuration
                     capabilities. By consolidating its existing network infrastructures
                     and data centers, DHS had estimated that it would provide a total




Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                               Page 4
                     saving of $871 million. Further, DHS estimated that it would cost
                     a total of $502 million to complete the OneNet implementation.
                     By the end of FY 2009, DHS will have spent $149 million on
                     OneNet implementation.

                     On November 20, 2007, the Office of Management and Budget
                     (OMB) issued Memorandum 08-05 (M-08-05) announcing the
                     Trusted Internet Connection (TIC) initiative. The purpose of the
                     TIC initiative is to reduce the number of government external
                     connections, including internet points of presence.

                     DHS is in the process of implementing OMB’s TIC initiative as
                     part of the department’s OneNet project. As of April 1, 2009, one
                     TIC was operational at
                     DHS expects                  will become operational
                                        by the third quarter of FY 2009. Currently, as
                     part of OneNet, DHS’ TIC provides four services to components:

                                          DHS estimated the completion of its TIC
                     initiative by October 30, 2009. Figure 3 depicts OneNet topology
                     with component gateways.

                     Figure-3 OneNet Diagram with Components Gateways




Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                          Page 5
Results of Audit

    Actions Taken to Implement OneNet
                          CBP, as the network steward, has taken various steps to
                          consolidate existing infrastructures into OneNet. The steps are
                          designed to provide a single IT infrastructure that is capable of
                          supporting the department’s mission and providing unified IT
                          services to all DHS components. For example, CBP has:

                               •	 Certified and accredited the                     TIC in
                                                              4
                                  2007 and OneNet in 2008. Our review of the certification
                                  and accreditation packages revealed no significant
                                  deficiencies. As such, both OneNet and the TIC were
                                  certified and accredited in accordance with applicable DHS
                                  and OMB information security policy.
                               •	 Established a change control process to ensure that
                                  configuration changes are reviewed, authorized, and tested
                                  prior to being implemented on the routers and firewalls on
                                  OneNet.
                               •	 Established a department-wide NOC/SOC incident
                                  response and reporting capability to resolve computer and
                                  network irregularities that may affect DHS' ability to
                                  conduct its mission, on a 24 hour, 7 day a week basis.5
                               •	 Implemented effective controls to protect the sensitive data
                                  stored and processed by the network. We did not identify
                                  any critical vulnerabilities from our internal vulnerability
                                  assessments or external penetration testing that could be
                                  exploited to gain access to the network.
                          Despite these efforts, DHS faces challenges in completing its
                          OneNet implementation. For example, DHS is experiencing
                          delays in meeting its scheduled completion date to consolidate
                          existing infrastructures into OneNet. In addition, components are
                          reluctant to participate and are not subscribing to the
                          implementation of OneNet and the TIC. More work remains to
                          ensure that components’ existing infrastructures are consolidated
4
  For certification and accreditation purposes, DHS divided the network into two systems: OneNet, and
TIC.
5
  The DHS NOC is responsible for ensuring the reliable operation of OneNet and manages the
configuration, operation, monitoring, and maintenance of the entire network infrastructure, supported by a
network management system and a suite of network devices. The DHS SOC is responsible for monitoring
the security of OneNet and manages the configuration, operation, monitoring, and maintenance of security
devices deployed around the enterprise.
    Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                                Page 6
                           into OneNet and provide the department with a more efficient
                           WAN and help DHS improve overall cost effectiveness across the
                           enterprise.


      Improved Management Oversight Needed To Complete
      OneNet Implementation
                           DHS has not provided effective oversight to ensure the timely
                           implementation of OneNet. In addition, the department has not
                           provided adequate leadership to guide components in their
                           transition to OneNet and the DHS TIC. Without the required
                           management oversight and leadership, CBP, as the OneNet
                           steward, may not be able to fully consolidate components’ existing
                           infrastructures into OneNet. As a result, DHS may not be able to
                           reach its ultimate goal of consolidating and modernizing its
                           existing infrastructure and achieve projected cost savings.

                           OneNet Implementation Is Behind Schedule

                           As of April 2009, almost three years have lapsed since the original
                           FY 2006 completion date. Many OneNet implementation
                           activities are not complete and progress has been limited. The
                           delays in implementing OneNet have stalled the department’s
                           effort. For example, in the department’s FY 2007 budget, DHS
                           had anticipated the following:6

                               •	 Achieving significant cost savings by shutting down
                                  redundant networks at components after the consolidation.
                               •	 Eliminating six component NOCs/SOCs after establishing
                                  the primary NOC/SOC to manage and monitor OneNet.
                           While the department has established the NOC/SOC to manage
                           and monitor OneNet, ITP program officials do not anticipate that
                           DHS will eliminate any component NOCs/SOCs. Additionally,
                           ITP program officials and CBP personnel do not foresee that any
                           component networks will be shut down.

                           In addition, DHS has not established interim milestones for the
                           critical tasks, such as establishing the MOAs between the
                           components and CBP and converting components’ sites to
                           Furthermore, the PMP, which is necessary to manage the project,

6
    Department of Homeland Security Budget-in-Brief Fiscal Year 2007.

     Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                               Page 7
                          does not contain the most accurate information or reflect the
                          current status of the network implementation.

                          According to an ITP program official, DHS expected components
                          to complete their migration to OneNet by April 2010. The
                          program official added that this new target date had been
                          communicated orally to the components in conferences and
                          meetings, but had not been established formally.

                                  Status of Components’ Activities

                                  As of April 2009, six components have yet to establish
                                  MOAs with CBP.7 Only DHS Headquarters and FEMA
                                  have MOAs with CBP. The remaining components’
                                  MOAs are in different stages of completion and review. In
                                  addition, FEMA and United States Secret Service (USSS)
                                  have yet to convert all of their sites to     Only five
                                  components (CBP, DHS Headquarters [HQ], Federal Law
                                  Enforcement Training Center [FLETC], Immigration and
                                  Customs Enforcement [ICE], and Transportation Security
                                  Administration [TSA]) have completed the conversion of
                                  their IP address schemes to OneNet to avoid conflicts. See
                                  Appendix C for a summary of components’ OneNet
                                  implementation status.

                                  Outdated Documentation

                                  Documentation used by CBP in managing OneNet does not
                                  contain the most updated project information. The latest
                                  version of the PMP, dated January 16, 2009, had not been
                                  updated since June 21, 2006, or for more than two years.
                                  The PMP does not contain any detailed OneNet
                                  implementation activities beyond FY 2009 or include the
                                  estimated resources needed to complete the project. For
                                  example:
                                       •	   Phase I-DHS Communication Network (DCN)
                                            Transformation. During this phase, the key task is
                                            to convert the DCN legacy network backbone to
                                            next-generation        service. According to the
                                            PMP, this transformation was completed in May
                                            2005.


7
 The roles and responsibilities between CBP and components, as well as agreed upon services, are
documented in MOAs.
    Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                               Page 8
                                  •	   Phase II-OneNet Capability and Stewardship. In
                                       the PMP, key activities and milestones for this
                                       phase include: complete functional requirements
                                       analysis; develop end-state design; establish the
                                       Primary NOC and SOC capability; convert ICE to
                                              service; and begin assuming responsibility
                                       for component edge routers. According to the PMP,
                                       this phase was completed in September 2006.
                                       However, OneNet’s end-state design has not been
                                       completed because the security requirements and
                                       network functionality continue to evolve.
                                  •	   Phase III-Interim Operating Capability (Component
                                       WAN Transition). According to the PMP, CBP,
                                       Citizenship and Immigration Services (CIS), ICE,
                                       DHS HQ, and TSA completed their transition to
                                       OneNet by 2007. In addition, the OneNet steward
                                       was to assume the operational control of
                                       components’ core routers and the internal DCN
                                       facing firewalls.
                                  •	   Phase IV-Full Operating Capability. It is noted in
                                       the ITP Charter, PMP, and CONOPS that FEMA is
                                       required to establish the alternate NOC/SOC
                                       capability. According to the PMP, this phase was to
                                       be completed by FY 2008. In addition, the PMP
                                       and CONOPS have not been updated to reflect that
                                       FEMA is no longer required to establish the
                                       alternate NOC/SOC for OneNet and that CBP has
                                       already established a backup NOC/SOC facility.
                     As part of the capital planning process, OMB requires agencies to
                     institute performance measures and provide management oversight
                     to monitor an IT project’s actual performance compared to
                     expected results. Agencies are required to prepare and update an
                     implementation plan or PMP for IT investments. The plan should
                     define the scope of work, identify the roles and responsibilities of
                     key personnel, and include milestones for critical tasks. Finally,
                     agencies are required to review and update the plan periodically to
                     determine whether an IT investment is meeting established
                     milestones, continues to deliver intended benefits, and is
                     completed within budget.

                     Without a consolidated WAN for the department, DHS will
                     continue to operate expensive, geographically dispersed networks
                     and inefficiencies and service reliability issues will remain
                     unresolved. As a result, DHS will face additional delays in

Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                          Page 9
                     achieving its projected cost savings of $841 million by
                     consolidating its network infrastructures and data centers.

                     Department Leadership Needs Strengthening For
                     Components’ OneNet and TIC Migration

                     DHS has not provided effective leadership to ensure that
                     components align their priorities with the department’s OneNet
                     and TIC initiatives. Components have made limited progress or
                     shown little interest in consolidating their existing infrastructures
                     into OneNet. Furthermore, components who are reluctant to
                     migrate to OneNet have insisted on maintaining their own internet
                     gateways, and are hesitant to use DHS TIC services. As a result,
                     DHS may incur additional expenses to maintain dispersed
                     networks and compromise network security.

                     As of April 2009, DHS was already behind in its TIC
                     implementation schedule and will not meet its October 30, 2009,
                     milestone. CIS, CBP, ICE, and TSA are not expected to complete
                     their TIC migration until December 31, 2009. Furthermore,
                     FEMA is not expected to complete its migration to the DHS TIC
                     until June 2010.

                     None of the components were using all four services that the DHS
                     TIC provides. Three components (FEMA, TSA, and USCG) do
                     not use any of the four services. The majority of the other
                     components are either using one or two services. Only DHS HQ
                     uses three services. See Figure 4 for a list of components TIC
                     services.

                     Figure 4-List of DHS TIC Services and Components’ Usage

                                                DHS TIC Services
   Components

       CBP                                           X
       CIS                    X                      X
     DHS HQ                   X                      X                   X
      FEMA
     FLETC                    X
       ICE                    X                      X
       TSA
      USCG
      USSS                    X


Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 10
                     USCG and USSS indicated that they will not complete their
                     migration to the DHS TIC or consolidate their existing
                     infrastructures onto OneNet. USSS decided that it would only use
                                        service that the DHS TIC provides. In addition,
                     USSS personnel indicated that the component was planning to
                     submit a waiver to the DHS CIO requesting to be exempted from
                     joining OneNet. Due to USCG’s unique military background and
                     requirements, after a February 2009 meeting between DHS and
                     Defense Information Systems Agency (DISA) senior officials, both
                     agencies agreed to allow USCG to be under the primary
                     governance of DISA and transition to DISA’s TIC.

                     With the exception of USCG, DHS has not authorized any
                     component to maintain its own internet gateways. However, citing
                     the specific needs to meet their mission and business requirements
                     and security concerns, several components plan to maintain their
                     own internet gateways or connection to the internet after their
                     migration to the DHS TIC. Figure 5 is a list of existing component
                     gateways.

                     Figure 5-List of Existing Component Gateways

               Components                    Number of                       Location
                                          Remaining Internet
                                             Gateways
       CIS                                        1
       FEMA                                       5



       FLETC                                         2

       ICE                                           1
       TSA                                           1
       USCG                                          4



       USSS                                          1

                     ITP program officials and CBP personnel attribute part of the
                     delays in components’ OneNet consolidation and migration to the
                     DHS TIC to the ever changing network design and increased
                     security requirements for new DHS and OMB initiatives. In
                     addition, due to the lack of consistency in granting security
Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 11
                     clearances and standardized suitability tests at the components,
                     some components had concerns in relinquishing control of their
                     network services to OneNet administrators. For example, USSS
                     requires individuals serving as system administrators to pass a
                     polygraph examination before being granted access to its network.
                     However, CBP does not have the same polygraph requirement for
                     OneNet administrators.

                     OMB’s TIC initiative requires agencies to reduce the number of
                     gateways to improve efficiency and security. By allowing
                     components to maintain their own internet gateways, DHS may
                     incur extra expenses for maintaining additional internet
                     connections. When the TIC initiative was announced, OMB
                     indicated that the reduction of access points to trusted internet
                     connections would improve the situational awareness for federal
                     agencies and allow the government to address potential threats in
                     an expedited and efficient manner. It is also OMB’s goal to
                     minimize overall operating costs for services through economies of
                     scale.

                     Due to staffing shortages, OCIO has not been able to perform its
                     program management oversight functions to ensure that OneNet
                     implementation is on schedule and key project documents are
                     current. OCIO staffing shortages are indicators that DHS has not
                     provided efficient oversight to manage OneNet implementation.

                     Increased risks exist that the OneNet implementation may be
                     further delayed, preventing DHS from obtaining a consolidated IT
                     infrastructure that is capable of supporting the department’s
                     mission and providing unified IT services to all components.
                     Establishing interim milestones and maintaining current project
                     documentation will provide DHS with the ability to better plan for
                     the OneNet implementation and monitor components’ progress.


             Recommendations
             We recommend that the Under Secretary for Management direct the CIO
             to:

             Recommendation #1: Strengthen the department’s oversight of OneNet
             implementation. Specifically, an agreed upon completion date and interim
             milestones for critical tasks to meet that date should be established to
             evaluate progress and determine whether critical tasks are completed
             timely. Components should be notified of implementation milestones.

Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 12
             Recommendation #2: Update the OneNet PMP and other documents
             periodically to reflect the current status of the implementation.

             Recommendation #3: Evaluate and revise the department’s current
             implementation strategy to ensure that components align their priorities
             with and participate in the department’s OneNet and TIC initiatives.

             Recommendation #4: Establish component implementation schedules to
             ensure their timely migration to OneNet and DHS TIC.

             Recommendation #5: Establish a process to evaluate and address
             components’ existing requirements regarding personnel security for the
             network administrators.


             Management Comments and OIG Analysis
                     DHS response to recommendation 1

                     DHS did not concur with recommendation 1. Management
                     responded that, in addition to a strong leadership team that
                     maintains day-to-day oversight, the department has a multi-faceted
                     structure in place to oversee and govern the OneNet program. The
                     Interim Change Control Board (ICCB) assures that all changes are
                     planned, engineered, tested, coordinated and approved prior to
                     their release into the OneNet production environment; the Chief
                     Information Security Officer monitors performance of the SOC to
                     ensure it is compliant with DHS’ security policies; the Senior
                     Infrastructure Officer Council (SIOC) regularly reviews all current
                     projects, schedule, cost and performance; and the Chief
                     Information Officer Council (CIOC), develops overarching
                     guidance and directs the effort. At the OCIO level, the DHS
                     CIO/Deputy CIO and the CBP CIO/Deputy CIO have frequent
                     discussions regarding the status of the OneNet implementation.

                     Furthermore, the department has several program level reporting
                     mechanisms in place to review the cost, schedule and performance
                     status, and bi-weekly updates to the SIOC regarding OneNet
                     implementation status that is reported in a “stoplight chart.”
                     Additionally, program milestones, schedule, risks and mitigation
                     strategies are reported to the CIO at the monthly program
                     management reviews. To further augment these program
                     management techniques, DHS will work with components to
                     update and establish project plans and schedules with key

Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 13
                     milestones and specific, accurate dates pertaining to the OneNet
                     and TIC migrations. The department will continue to monitor
                     progress through the SIOC/CIOC and work with each component
                     to ensure all schedules, critical tasks and milestones are being
                     completed in a timely manner.

                     OIG analysis

                     We consider this recommendation unresolved and will require
                     additional discussion between our offices before disposition. We
                     maintain that DHS must strengthen its component oversight to
                     ensure timely completion of the OneNet consolidation. Three
                     years have lapsed since the original FY 2006 completion date.
                     Many implementation activities are not complete and components
                     have made limited progress or shown little interest in consolidating
                     their existing infrastructures into OneNet. For example, none of
                     the components are using all four services that the DHS TIC
                     provides. The majority of components are currently using one or
                     two services and several components plan to maintain their own
                     internet connection after their migration to the DHS TIC.

                     As we noted in our report, an adequate change control process has
                     been established to ensure that configuration changes are reviewed,
                     authorized, and tested prior to being implemented on OneNet.
                     However, the ICCB only has oversight on reviewing and
                     approving proposed technical changes and does not monitor
                     components’ progress on migrating to OneNet. Furthermore,
                     while we noted that DHS monitors the implementation through the
                     use of a “stoplight chart” and SIOC/CIOC meetings, we maintain
                     that the department’s OneNet oversight must be strengthened. For
                     example, management responded that the CIOC develops
                     overarching guidance and directs the implementation effort. With
                     the exception of the Deputy Secretary memorandum, ITP program
                     officials were unable to provide additional documentation to
                     support that DHS had issued any guidance to components
                     regarding OneNet consolidation. While the security requirements
                     and OneNet functionality continue to evolve, the PMP has not
                     been updated to reflect any detailed implementation activities
                     beyond FY 2009. In addition, the PMP does not include the
                     estimated resources needed to complete the project. DHS cannot
                     effectively measure the OneNet implementation status without an
                     updated PMP or establishing a completion date for the
                     consolidation and interim milestones for critical tasks such as
                     establishing the required MOAs with CBP, migrating components’
                     existing infrastructures into OneNet, or utilizing the services that

Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 14
                     OneNet provides. Without strengthening components’ oversight,
                     OneNet implementation may be further delayed, preventing DHS
                     from obtaining a consolidated IT infrastructure.

                     DHS response to recommendation 2

                     DHS concurred with recommendation 2. DHS will update the
                     OneNet PMP, to include key milestones and dates pertaining to the
                     OneNet transition in Fiscal Year (FY) 2010.

                     OIG analysis

                     We agree that the steps that DHS is taking, and plans to take, begin
                     to satisfy this recommendation. We consider this recommendation
                     resolved and will remain open until DHS provides documentation
                     to support that all planned corrective actions are completed.

                     DHS response to recommendation 3

                     DHS did not concur with recommendation 3. DHS noted that the
                     department will review the OneNet and TIC implementation
                     strategy and update as necessary with input from components. If
                     updates or revisions of component priorities are necessary, DHS
                     will work in concert with the SIOC/CIOC to ensure priorities are
                     revised accordingly. While component participation must be
                     strengthened in the future, DHS has taken a number of steps to
                     provide effective leadership for the OneNet transition. In 2006, the
                     Deputy Secretary issued a memorandum which not only provided
                     clear direction to support and prioritize ITP efforts, but also
                     directed components to plan migrations and apply both investment
                     and Operation and Management dollars toward achieving the ITP
                     end state in several key areas, including networks. OCIO has
                     recommended to the Secretary’s Efficiency Review Team that a
                     Management Action Directive also be issued to reinforce the 2006
                     Deputy Secretary policy memorandum.

                     OIG analysis

                     While DHS noted in its response that the department did not
                     concur with the recommendation, we conclude that the proposed
                     corrected actions satisfy and meet the intent of this
                     recommendation. For example, the department agreed that
                     component participation must be strengthened in the future. DHS’
                     proposed actions include a review of the OneNet and TIC
                     implementation strategy. We consider this recommendation

Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 15
                     resolved and will remain open until DHS provides documentation
                     to support that all planned corrective actions are completed.

                     DHS response to recommendation 4

                     DHS concurred with recommendation 4. DHS will work with
                     components to update and establish Project Plans and schedules
                     with key milestones and specific, accurate dates pertaining to
                     OneNet and TIC migrations. The department will continue to
                     monitor progress through the SIOC/CIOC and work with each
                     component to ensure all schedules, critical tasks and milestones are
                     completed in a timely manner.

                     OIG analysis

                     We agree that the steps that DHS is taking, and plans to take, begin
                     to satisfy this recommendation. We consider this recommendation
                     resolved and will remain open until DHS provides documentation
                     to support that all planned corrective actions are completed.

                     DHS response to recommendation 5

                     DHS concurred with recommendation 5. The issue is being
                     addressed by the DHS Deputy Secretary, who is leading the effort
                     to establish suitability reciprocity within DHS, and will also be
                     addressed by the overall Federal reform effort concerning
                     suitability reciprocity throughout the executive branch. Suitability
                     reciprocity is not mandated in the Federal government since no
                     implementation order has been published. However, the DHS
                     Office of the Chief Security Officer has taken a proactive approach
                     along with the OCIO, and has begun negotiations with the
                     components to come to an agreement on minimum
                     investigative/adjudicative standards which will be acceptable to all
                     components at DHS, and allow for reciprocity.

                     OIG analysis

                     We agree that the steps that DHS is taking, and plans to take, begin
                     to satisfy this recommendation. We consider this recommendation
                     resolved and will remain open until DHS provides documentation
                     to support that all planned corrective actions are completed.




Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 16
    Technical Changes Can Improve OneNet Security
                         Overall, DHS has implemented effective security controls over
                         OneNet. To assess the security posture, we interviewed selected
                         IT personnel at OneNet’s primary and backup NOC/SOC. In
                         addition, we performed internal vulnerability assessments using

                                                 Further, we reviewed configuration
                         settings on                       for compliance with applicable
                         DHS policy and National Institute of Standards and Technology
                         (NIST) guidance. Finally, we performed external penetration
                         testing using              to validate the results of our internal
                                                   8
                         vulnerability assessments.

                         Security Testing Validated the Effectiveness of Controls
                         Implemented

                         As of January 2009, DHS had deployed more than 3,000 network
                         devices on OneNet to include firewalls, routers, and switches. In
                         assessing the effectiveness of system controls, we performed
                         vulnerability assessments on 41 internal network devices, i.e.,
                                                           These devices were selected based
                         on


                                            No critical vulnerabilities were identified that
                         could be exploited to gain unauthorized access to OneNet. We
                         also reviewed configuration settings
                                                                      penetration testing.

                         To validate our internal vulnerability assessment results, we
                         performed an external penetration test. The purpose of our
                         external penetration test was to attempt to gain access to OneNet
                         externally and to validate our vulnerability assessment results.
                         First, we
                                            We then targeted

                                                                             We performed



8




    Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                             Page 17
                                                                    Utilizing information
                     obtained from the discovery scans, the next step of the penetration
                     test was to exploit any potential vulnerabilities to gain access to the
                     network.

                     The results of our external penetration testing revealed that DHS
                     has implemented effective controls to restrict access to OneNet
                     through its external gateway,



                                                                                    DHS
                     has implemented this as a protective measure to restrict access to
                     sensitive information about the network from an outside source.
                     The results from our configuration review and internal
                     vulnerability assessments are consistent with this finding.



                                                              Based on our
                     configuration review and the results of our discovery scans, the
                     responding IP addresses are designed to communicate with other
                     authorized routers outside the network and to facilitate traffic
                     through the network.

                     The results of our penetration testing revealed that DHS has
                     implemented effective controls to prevent unauthorized access to
                     the network. The penetration test results support the output and
                     analysis of the internal vulnerability testing and assessments of the
                     security controls conducted during our audit. However, these test
                     results are limited to
                                    They cannot be used to support any conclusions
                     about the security controls of OneNet through component
                     gateways.

                     DHS Security Baseline Configuration Settings

                     While CBP has implemented effective controls on OneNet,
                           were not configured based on DHS security guidelines.
                     When        are not properly configured,




Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 18
                                                                                              We
                     identified the following:




Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 19
                     DHS has developed configuration guidelines, which are a set of
                     procedures to ensure minimum baseline security
                                                                       . Components
                     are required to ensure that DHS baseline configuration settings are
                     implemented.

                     NOC/SOC Disaster Recovery Capability Can Be Improved

                     DHS has not ensured that its backup facility, located in

                                                      at its primary NOC/SOC location.




                     The NOC/SOC backup facility, which became operational in
                     January 2009, provides around the clock continuous incident
                     analysis and monitoring of OneNet traffic.




                                                                         The main
                     function of the backup NOC/SOC is to analyze and monitor
                     OneNet traffic. In the event of an emergency, the backup
                     NOC/SOC is required to replicate the primary facility and provide
                     consistent, compatible incident response and monitoring functions.

                     According to CBP personnel, the backup site was selected as a
                     secondary NOC/SOC because the facility had an existing
                     infrastructure that met DHS’ requirements. In the event of an
                     extended service disruption at the primary NOC/SOC, CBP
                     personnel stated that




Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 20
                                                                CBP personnel added that the
                     department plans


                                         However, no timeline has been established.

                     FISMA requires that each agency develop, document, and
                     implement an agency wide information security program approved
                     by the Director of OMB that includes, among other things, plans
                     and procedures to ensure the continuity of operations for
                     information systems that support the operations and assets of the
                     agency. DHS and OMB require that contingency planning be
                     developed to maintain or restore business operations, including
                     computer operations, possibly at an alternate location, in the event
                     of emergencies, system failures, or disaster.

                     A backup facility can provide the capabilities to replicate and
                     restore critical applications and functions in order to resume
                     operations in the event of a disaster. Losing computing capability
                     and the ability to monitor, respond to, and investigate OneNet
                     security incidents can significantly affect DHS’ ability to
                     accomplish its mission.




             Recommendations
             We recommend that the Under Secretary for Management direct the CIO
             to:

             Recommendation #6: Implement a technical solution for OneNet to
             provide


             Recommendation #7: Strengthen                     controls to restrict access and
             prevent unauthorized

             Recommendation #8: Disable                                               to prevent
             unauthorized access.

             Recommendation #9: Establish an alternate site to supplement the
             backup NOC/SOC capability until the facility can be




Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 21
             Management Comments and OIG Analysis
                     DHS response to recommendation 6

                     DHS concurred with recommendation 6. DHS is now taking steps
                     to ensure that
                                                                    Upon completion of
                     the verification effort, a scan of the network will be conducted to
                     ensure compliance. DHS expects this effort to be completed by
                     August 31, 2009.

                     OIG analysis

                     We agree that the steps that DHS is taking, and plans to take, begin
                     to satisfy this recommendation. We consider this recommendation
                     resolved and will remain open until DHS provides documentation
                     to support that all planned corrective actions are completed.

                     DHS response to recommendation 7

                     DHS concurred with recommendation 7. DHS will change the
                     configuration of all OneNet    to comply with the DHS
                     MD4300A policy




                                               will be completed by August 31, 2009.
                     Physical security of the OneNet primary and backup NOC
                     facilities includes strict access control and personnel security
                     procedures, and security monitoring 24 hours a day, seven days a
                     week.
                                   in accordance with the DHS system security policy.

                     OIG analysis

                     We agree that the steps that DHS is taking, and plans to take, begin
                     to satisfy this recommendation. We consider this recommendation
                     resolved and will remain open until DHS provides documentation
                     to support that all planned corrective actions are completed.

                     DHS response to recommendation 8

                     DHS did not concur with recommendation 8. DHS noted that
                                                          Scans are performed

Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 22
                     regularly to discover devices running unnecessary or unauthorized
                     services, in addition to continuous network Intrusion Detection
                     Systems monitoring in real-time.

                     OIG analysis

                     We maintain that                 were not configured based on
                     DHS security guidelines                            were not
                     disabled. While DHS prohibits the use of         during our
                     vulnerability assessments we identified seven instances where the
                     service was enabled on selected          Our results revealed that
                                              were not fully configured based on DHS
                     configuration guidelines. DHS must strengthen its controls to
                     ensure                      are disabled on                     .
                     We consider this recommendation unresolved and will require
                     additional discussion between our offices before disposition.

                     DHS response to recommendation 9

                     DHS did not concur with recommendation 9. DHS noted that as of
                     December 31, 2008, the department had achieved full operating
                     capability of the backup NOC/SOC facility. According to DHS,
                     the backup NOC/SOC staff is sufficient to cover core critical
                     NOC/SOC services. OneNet has fully redundant NOC/SOC server
                     facilities with full live data replication in real-time, as well as live
                     24 hours a day, seven days a week NOC/SOC staff currently
                     integrated in real time operations. Per DHS, OneNet and the
                     backup NOC/SOC in                performed a successful Continuity of
                     Operations failover test in January 2009 that included restoration
                     and failover of all critical NOC/SOC applications from the backup
                     NOC/SOC. The backup NOC/SOC can be


                     OIG analysis

                     We maintain that due to                         the secondary
                     NOC/SOC

                     in the event of an extended emergency. A backup facility should
                     provide the capabilities of replicating and restoring critical
                     applications and functions in order to resume operations in the
                     event of emergency. While the backup NOC/SOC is staffed to
                     monitor the network for potential outages,



Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 23
                                                          Furthermore, due to the
                     sensitive nature of NOC/SOC operations, these functions cannot be
                     performed in an unprotected office environment or staffs’
                     residences. We consider this recommendation unresolved and will
                     require additional discussion between our offices before
                     disposition.




Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                         Page 24
Appendix A
Purpose, Scope, and Methodology



                       The objective of our review was to determine whether DHS is
                       implementing OneNet effectively, including related security
                       controls, and whether projected savings and targeted milestones
                       have been achieved. Specifically, we determined whether: (1)
                       DHS has achieved its program management goals, including
                       targeted milestones and projected cost savings for OneNet; (2)
                       effective security controls have been implemented on OneNet to
                       protect the information stored and processed by the network; (3)
                       adequate network and security monitoring are performed for
                       OneNet; and (4) FISMA requirements were met.

                       We interviewed selected personnel at DHS HQ and component
                       facilities in the Washington, D.C. area; primary NOC/SOC
                       personnel in                     ; and backup NOC/SOC personnel in
                                      . In addition, we reviewed and evaluated DHS’
                       security policies and procedures, OneNet project plans and
                       technical descriptions, the ITP charter, and other appropriate
                       documentation. During the audit, we used software tools,
                                                 , to detect, analyze, and evaluate the
                       effectiveness of the security controls implemented on selected
                       OneNet                                        We also performed
                       external penetration testing using                 to validate the
                       results of our internal vulnerability assessments. Upon completion
                       of the assessments, we provided program officials with the
                       technical reports detailing the specific vulnerabilities detected on
                       OneNet network devices and the actions needed for remediation.

                       We conducted this audit between January and April 2009 

                       according to generally accepted government auditing standards. 

                       Those standards require that we plan and perform the audit to 

                       obtain sufficient, appropriate evidence to provide a reasonable 

                       basis for our findings and conclusions based on our audit 

                       objectives. We believe that the evidence obtained provides a 

                       reasonable basis for our findings and conclusions based on our 

                       audit objectives. Major OIG contributors to the audit are identified 

                       in Appendix D. 


                       The principal OIG points of contact for the evaluation are 

                       Frank Deffer, Assistant Inspector General, Office of Information 

                       Technology, at (202) 254-4041 and Edward G. Coleman, Director, 

                       Information Security Audit Division, at (202) 254-5444. 




    Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                             Page 25
Appendix B
Management Comments




   Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                            Page 26
Appendix B
Management Comments




   Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                            Page 27
Appendix B
Management Comments




   Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                            Page 28
Appendix B
Management Comments




   Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                            Page 29
Appendix B
Management Comments




   Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                            Page 30
Appendix B
Management Comments




   Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                            Page 31
Appendix B
Management Comments




   Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                            Page 32
Appendix B
Management Comments




   Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                            Page 33
Appendix B
Management Comments




   Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                            Page 34
Appendix C
Components’ OneNet Implementation Status




    Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                             Page 35
Appendix D
Major Contributors to this Report


                       Information Security Audit Division

                       Edward Coleman, Director
                       Chiu-Tong Tsang, Audit Manager
                       Mike Horton, IT Officer
                       Barbara Bartuska, Audit Manager
                       Maria Rodriguez, Team Lead
                       Aaron Zappone, Program Analyst
                       Nazia Khan, IT Specialist

                       Domingo Alvarez, Referencer




    Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                             Page 36
Appendix E
Report Distribution


                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff for Operations
                       Chief of Staff for Policy
                       Acting General Counsel
                       Executive Secretary
                       Assistant Secretary for Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       Chief Information Officer
                       Deputy Chief Information Officer
                       Chief Information Security Officer
                       Director, Compliance and Oversight
                       Director, GAO/OIG Liaison Office
                       CIO Audit Liaison
                       Chief Information Security Officer Audit Manager

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




    Improved Management and Stronger Leadership Are Essential to Complete the OneNet Implementation

                                             Page 37
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
